  BENEFICIARY DATA SUPPORTING THE DOD MILITARY RETIREMENT
             HEALTH BENEFITS LIABILITY ESTIMATE


Report No. D-2001-154                            July 5, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAC                   Common Access Card
DEERS                 Defense Enrollment Eligibility Reporting System
DFAS                  Defense Finance and Accounting Service
DMDC                  Defense Manpower Data Center
DUSD(PI)              Deputy Under Secretary of Defense (Program Integration)
IAW                   In Accordance With
ID                    Identification
MRHB                  Military Retirement Health Benefits
OIG                   Office of the Inspector General
RAPIDS                Real-Time Automated Personnel Identification System
SOP                   Standard Operating Procedures
SVO                   Super Verifying Officials
USD(P&R)              Under Secretary of Defense (Personnel and Readiness)
VO                    Verifying Officials
                        Office of the Inspector General, DoD
Report No. D-2001-154                                                        July 5, 2001
   (Project No. D2000FA-0042.001)

        Beneficiary Data Supporting the DoD Military Retirement
                    Health Benefits Liability Estimate

                                    Executive Summary

Introduction. The audit was performed in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” and Public Law 103-356, the “Federal Financial
Management Act of 1994.” The unfunded military retirement health benefits liability
amount calculated by the Actuary, DoD, and reported on the FY 2000 DoD Agency-
Wide Financial Statements was $192.4 billion, which represents 19 percent of the
approximately $1 trillion of total liabilities reported by DoD for FY 2000. Military
retirement health benefits are post-retirement benefits that DoD provides to military
retirees and other eligible beneficiaries through the Tricare program. Tricare consists
of medical care provided by DoD military treatment facilities and the purchased care
obtained from civilian providers. The demographic extract from the Defense
Enrollment Eligibility Reporting System (DEERS), dated September 30, 1998, (the
most current extract available for estimating the liability) identified 8.4 million
medically eligible beneficiaries out of 11.6 million eligible beneficiaries within DEERS.

DEERS is a centralized personnel data repository designed to provide timely and
accurate information on those eligible for DoD benefits and entitlements. DEERS
collects and maintains information to ensure and facilitate the effective and efficient
administration of DoD missions to include the military health system and other benefit
and entitlement programs that derive eligibility information from DEERS.

Objectives. The objective of the audit was to assess the reliability and completeness of
the demographic data used to calculate the DoD military retirement health benefits
liability. We also reviewed the management controls related to the objective.

Results. DEERS data provided to the Actuary, DoD were reliable only 85 percent of
the time; and quality control improvements were needed. We statistically projected that
1.3 million beneficiaries (15 percent) of 8.4 million beneficiaries in the demographic
data extract used to calculate the military retirement health benefit liability were either
ineligible, unable to be verified, or had incorrect critical data in their DEERS records.
Specifically, the DEERS data extract used to estimate the FY 2000 unfunded military
retirement health benefits liability included an estimated:

       •   189,000 ineligible beneficiaries,
       •   841,000 beneficiaries whose existence or eligibility was unable to be
           verified, and

       •   226,000 beneficiary records with incorrect critical data.

In addition, ineligible persons could have received DoD medical care, pharmaceuticals
and exchange services, and could have access to commissary and other benefits. Some
of the estimated 841,000 unverified beneficiaries may also be ineligible for benefits.
Furthermore, the risk of unauthorized access to DoD facilities and services is increased
because unauthorized beneficiaries may have been issued identification cards. The
Actuary, DoD, was unsure of the extent of the effect on the liability estimate on the FY
2000 financial statements and future years but agreed there was an adverse effect. See
Appendix A for details on the review of the management control program.
Summary of Recommendations. We recommend that the Under Secretary of
Defense (Personnel and Readiness) develop and implement a comprehensive data
quality assurance program to verify the completeness, existence, and accuracy of both
the new and existing data residing in the DEERS database. Additionally, we
recommend the Director of Defense Manpower Data Center develop and maintain a
complete list of DEERS data users, the responsible organization(s), the points of
contact for data quality assurance for each use, and explanations of how the data are
used.

Management Comments. The draft report was issued March 22, 2001. We did not
receive management comments on the draft report. We request that the Under
Secretary of Defense (Personnel and Readiness) provide comments on this final report
by August 6, 2001.




                                            ii
Table of Contents

Executive Summary                                                        i


Introduction
     Background                                                         1
     Objectives                                                         2

Finding
     Defense Enrollment Eligibility Reporting System Data Reliability   4

Appendixes
     A. Audit Process
         Scope                                                          14
         Methodology                                                    15
         Statistical Sampling Methodology                               17
         Management Control Program Review                              19
         Prior Coverage                                                 20
     B. Schedule of Management Control Problems                         21
     C. Report Distribution                                             22
Background
    Requirements for Financial Statements. Public Law 101-576, the “Chief
    Financial Officers Act of 1990,” November 15, 1990, as amended by Public
    Law 103-356, the “Federal Financial Management Act of 1994,” October 13,
    1994, requires DoD and other Government agencies to prepare financial
    statements. The Inspector General, DoD, is responsible for auditing the DoD
    Agency-Wide financial statements. The General Accounting Office is
    responsible for auditing the consolidated Federal Government financial
    statements.

    Office of Management and Budget Guidance. Office of Management and
    Budget Bulletin No. 97-01, “Form and Content of Agency Financial
    Statements,” as amended on September 11, 2000, provides guidance to agencies
    on the preparation of financial statements. The Bulletin establishes guidance for
    reporting pensions, other retirement benefits, and other post-employment
    benefits. Other retirement benefits include all retirement benefits other than
    pension plan benefits. The Bulletin further states that the entities responsible for
    accounting for other retirement benefits should calculate and report the liabilities
    and related expenses in accordance with Statement of Federal Financial
    Accounting Standard No. 5, “Accounting for Liabilities of the Federal
    Government,” September 1995.

    Defense Enrollment Eligibility Reporting System. DoD Directive 1341.1,
    “Defense Enrollment Eligibility Reporting System (DEERS),” May 21, 1999,
    and DoD Instruction 1341.2, “DEERS Procedures,” March 19, 1999, assign
    responsibility to the Under Secretary of Defense (Personnel and Readiness)
    (USD[P&R]) for establishing overall functional policies and procedures for the
    oversight, funding, personnel staffing, direction, and functional management of
    DEERS. These regulations also state that USD(P&R) assigns the Defense
    Manpower Data Center (DMDC) as the responsible agency for the technical,
    acquisition, and functional management of the DEERS program. DEERS is
    designed to provide timely and accurate information on those eligible for
    benefits and entitlements and to prevent and detect fraud and abuse in the
    distribution of benefits and entitlements. DMDC collects and maintains
    information in DEERS to ensure the effective and efficient administration of
    DoD missions to include the military health system and other benefit and
    entitlement programs that derive eligibility information from DEERS. DEERS
    serves as the centralized personnel data repository of information for
    approximately 23 million beneficiaries. DMDC categorizes the 23 million
    beneficiaries as approximately 11.6 million eligible beneficiaries and
    11.4 million archived persons who are either deceased or otherwise no longer
    eligible for benefits.

    DMDC Functions. The primary function of DMDC is to support the
    information management needs of the USD(P&R). The Actuary, DoD uses
    information from the DEERS division of DMDC West. DEERS is one of the
    eight DMDC West divisions. Military members are attached to DMDC West as
    liaisons of the active and reserve components of the Military Services personnel
                                         1
     centers. DMDC receives data from several significant systems for entry into
     DEERS. They include the military personnel centers for active duty and
     Reserve files, Defense Finance and Accounting Service (DFAS) Cleveland for
     the retired pay files, military enlistment processing centers for new enlistees,
     and the Real-Time Automated Personnel Identification System—the entry point
     for dependents and sponsor changes.

     Real-Time Automated Personnel Identification System (RAPIDS). RAPIDS
     was established in 1981 to implement a more secure method for producing
     identification (ID) cards and to reduce potential fraud, waste, and abuse
     associated with obtaining benefits available to members of the Uniformed
     Services and their family members. RAPIDS is the software that is used by
     military ID card offices to create and modify personnel information stored in
     DEERS to provide ID cards and related personnel support to persons who are
     eligible for Uniformed Services benefits. The DEERS database and RAPIDS
     application are linked because RAPIDS is one of the primary means for
     updating information in DEERS on family members entitled to benefits.
     Currently, RAPIDS transactions account for over 90 percent of the on-line
     transactions that keep the DEERS database up to date.

     Uniformed Services Member Identification Card. DoD Directive 1000.22,
     “Uniformed Services’ Identification (ID) Cards,” October 8, 1997, requires
     DoD to provide members of the Uniformed Services with a distinct ID card for
     use in identifying their status as active duty, Reserve, or retired. The ID card
     is used as an authorization for Uniformed Services’ benefits and privileges. The
     members’ eligible dependents and other eligible individuals will also be
     provided with a distinct ID card to be used as an authorization card for benefits
     and privileges administered by the Uniformed Services.

     Military Retirement Health Benefits (MRHB). MRHB are post-retirement
     benefits that DoD provides to military retirees and other eligible beneficiaries
     through the Tricare program, consisting of DoD military treatment facilities and
     civilian providers, also known as purchased care. FY 1997 was the first year
     that DoD reported the unfunded liability for the MRHB on the DoD Agency-
     Wide financial statements. For FY 2000, the liability amount calculated by the
     Actuary, DoD, was $192.4 billion. The liability is 19 percent of the
     approximately $1 trillion of liabilities included on the DoD Agency-Wide
     financial statements.

Objectives
     The objective of the audit was to assess the reliability and completeness of the
     demographic data used to calculate the DoD MRHB liability. Specifically, we
     reviewed data from the DEERS extract used for estimating the liability.
     Additionally, we reviewed the management controls related to the objective.
     We reviewed the management control program and selected input controls for
     DEERS to determine whether controls adequately help ensure the reliability of
     processed data and prevent the entry of information for ineligible individuals
     into DEERS. Also, we reviewed the retention of eligibility for beneficiaries no

                                         2
longer eligible to receive DoD benefits. See Appendix A for a discussion of the
audit scope and methodology, our review of the management control program,
and prior audit coverage related to the audit objective.




                                   3
           Defense Enrollment Eligibility Reporting
           System Data Reliability
           DEERS data provided to the Actuary, DoD were reliable only 85 percent
           of the time, and quality control, improvements were needed. We
           estimated 1.3 million beneficiaries (15 percent) of the 8.4 million
           beneficiaries in the data extract used to calculate the military retirement
           health benefit liability were either ineligible, unable to be verified, or
           had incorrect critical data in their DEERS records. Specifically, the
           DEERS data extract used to estimate the FY 2000 unfunded MRHB
           liability included an estimated:

                  •   189,000 ineligible beneficiaries,

                  •   841,000 beneficiaries whose existence or eligibility was
                      unable to be verified, and

                  •   226,000 beneficiary records with incorrect critical data.

           This occurred because the USD(P&R) had not established an overall
           quality assurance program for the data in the DEERS database. More
           specifically, management controls at RAPIDS data entry sites were
           inadequate. Also, DMDC and the Military Services did not conduct
           comprehensive data quality reviews of the DEERS data. In addition to
           the impact on the financial statements, ineligible persons could have
           received DoD medical care, pharmaceutical support and exchange
           services, and could be granted access to commissary and other benefits.
           Also, some of the estimated 841,000 unverified beneficiaries may be
           ineligible for benefits. Furthermore, the risk of unauthorized access to
           DoD facilities and services is increased because unauthorized
           beneficiaries could be issued ID cards. The Actuary, DoD, was unsure
           of the extent of the effect on the liability estimate on the FY 2000
           financial statements and future years but agreed there was an adverse
           effect.

Uses of DEERS Information
    During the audit, we requested from DMDC a comprehensive listing of the uses
    of DEERS data within DoD, but the list was not provided. The uses of the data
    are needed to design an effective quality assurance and oversight program,
    giving appropriate priority based on the use of the data.

    DEERS was established to improve the management of the Uniformed Services
    resources and benefits, and improve the accuracy of personnel data files. The
    system was intended to be an accurate accounting of all who are eligible for
    Uniformed Services benefits. Those eligible include active duty, Reserve, and
    retired sponsors as well as their dependents and survivors. A sponsor is the
    military Service member whose service entitles his or her dependents to DoD

                                        4
    benefits. Sponsors are also considered beneficiaries and include both living
    military Service members and deceased members with survivors eligible for
    DoD benefits.

    A primary purpose of the system was to improve the planning, programming,
    budgeting, and allocation for many benefits such as health care, education,
    housing, child care, commissaries, exchanges, and facilities planning and
    construction in DoD. Based on available documentation and comments from
    management officials in Health Affairs and the Military Services we identified
    some uses of DEERS information. DEERS information is used for determining
    beneficiary eligibility for DoD health care provided in the direct care system
    and civilian medical care networks. The Defense Health Program depends on
    population information from DEERS to develop the DoD medical program,
    determine the military health care system budget, and allocate resources to the
    Military Departments. DEERS is also used as a basis for contract negotiations
    for Tricare initiatives and management of Tricare or direct care alternatives.
    DEERS information is also used by the Actuary, DoD, for calculating the
    MRHB liability estimate.

    DEERS Extract Preparation. The Actuary, DoD, requested an extract for use
    in calculating the MRHB liability estimate included in the DoD Agency-Wide
    financial statements. DMDC prepared a DoD beneficiary extract and a DoD
    sponsor extract from the DEERS database. The DEERS extract provided to the
    Actuary, DoD, contained demographic information on approximately 8.4
    million DoD beneficiaries eligible for health care as of September 30, 1998. As
    of January 18, 2001, DMDC has not been able to provide a more current and
    reliable extract to the Actuary, DoD. Therefore, the FY 1998 DEERS
    demographic information was used to calculate the FY 2000 MRHB liability
    estimate. The extract included selected data fields critical to calculating the
    liability. The fields included the beneficiary’s Social Security number, date of
    birth, sex, dependent data suffix, and relationship to the sponsor and the
    sponsor’s status, service, paygrade, component, and disability status.

Systematic Sample
    Prior to drawing a statistical sample, we analyzed a systematic sample of 50
    sponsors and their 67 dependents from the DEERS extract provided to the
    Office of the Actuary, DoD by DMDC. The systematic sample showed that
    some beneficiaries in DEERS were no longer eligible or were never eligible for
    DoD benefits. For example, the sample included a sponsor who should have
    lost DEERS eligibility in 1970. This sponsor also had three dependents in
    DEERS as eligible who were never eligible for DoD benefits. The sponsor
    remained in DEERS for more than 30 years as eligible for DoD benefits. We
    believe the sponsor is still showing as eligible for DoD benefits in DEERS. In
    addition, the sample included a married sponsor who actually was an unmarried
    foreign national and should not have been included in DEERS. The sample also
    included some dependents of retirees, of which we were unable to verify
    existence or eligibility. DMDC was provided the detailed results in September

                                        5
     2000. The results of the systematic sample are consistent with the results of a
     statistical sample of the DEERS extract to measure data reliability.

Data Reliability
     Based on our statistical sample results, DEERS data were reliable 85 percent of
     the time; however, improvements were needed. We estimated 1.3 million
     beneficiaries (15 percent) of 8.4 million beneficiaries in the DEERS extracts
     used to calculate the MRHB liability were either ineligible, unable to be
     verified, or had incorrect critical data in their DEERS records. Specifically, the
     DEERS database included an estimated 189,000 ineligible beneficiaries,
     841,000 unverified beneficiaries, and 226,000 beneficiary records with incorrect
     critical data. The results of the statistical sample are projected as follows:


                             DEERS Beneficiary Problems
            Problem Category       Mid-Point     Upper Bound                 Lower Bound
                                   Estimate*       Estimate                    Estimate
      Ineligible Beneficiaries             189,000           349,000             28,000
      Unverified Beneficiaries             841,000         1,236,000            446,000
      Records with Incorrect Data          226,000           361,000             92,000

      *   The mid-point estimate for all three problem categories combined is 1,256,000.   See
          Appendix A for more details.



     Ineligible Beneficiaries. The DEERS database included beneficiaries that were
     no longer eligible for DoD benefits. We statistically projected that 189,000 of
     8.4 million beneficiaries in the DEERS extract were ineligible for DoD benefits.
     Sample beneficiaries classified as eligible in DEERS were ineligible because
     they lost their eligibility due to a change in status such as divorce, death, or
     military service discharge. For example, one individual was discharged after
     less than 1 month of active duty service and remained eligible for DoD benefits
     in DEERS 3.5 months after his discharge. Another beneficiary was the
     divorced spouse of an active duty sponsor who remained eligible in DEERS
     almost 2 years after losing eligibility as a result of the divorce. One sponsor
     was discharged over 20 years ago without benefits, but he was in DEERS as
     eligible for all benefits as an active duty retiree.

     Unverified Beneficiaries. The DEERS database included people who were
     eligible for benefits whose existence and eligibility could not be verified. The
     majority of unverified beneficiaries were dependents of retired sponsors. We
     statistically projected that the existence of 841,000 of 8.4 million beneficiaries
     in the DEERS extract could not be verified using extensive research techniques.


                                           6
    The existence and eligibility of people coded as eligible for benefits could not be
    verified after efforts to obtain supporting documentation such as:

           •   birth and marriage certificates;

           •   signed DD Forms 1172, “Application for Uniformed Services
               Identification Card/DEERS Enrollment” from RAPIDS offices; or

           •   other information to substantiate the beneficiary existence and
               eligibility.

    Data Errors. The DEERS database included 226,000 beneficiaries with errors
    in critical data fields used for determining benefit eligibility. The critical data
    fields we reviewed were sponsors’ Social Security number, service, component,
    paygrade, date of birth, and sex. The majority of data errors were related to
    sponsor date of birth.

RAPIDS Management Controls
    Data errors and unverified beneficiaries in DEERS were caused by inadequate
    consideration for data quality assurance at the RAPIDS sites. Overall there
    were weak management controls and little consistency and standardization of
    policies and procedures to ensure accurate and reliable data entry into the
    RAPIDS among the 13 RAPIDS sites visited. We judgmentally selected 13 out
    of approximately 900 RAPIDS sites to visit. These 13 sites were representative
    of the different transaction volumes at RAPIDS sites. The problems that were
    reoccurring in most of the locations visited included the lack of documented
    quality reviews, no retention of source documents, no separation of duties for
    issuing and verifying officials, and no internal standard operating procedures in
    place. For a complete listing of RAPIDS sites visited and management control
    problems identified, see Appendixes A and B.

    DEERS/RAPIDS Project Office. Each Military Service has a
    DEERS/RAPIDS Project Office that is responsible for its respective RAPIDS
    sites and implements DoD policy. The DEERS/RAPIDS Project Offices are
    members of the Joint Personnel Advisory Committee that developed the Joint
    Instruction, Air Force Instruction, 36-3026 “Identification Cards for Members
    of the Uniformed Services, Their Family Members, and Other Eligible
    Personnel,” July 29, 1999. The Joint Instruction implements DoD Instruction
    1000.13, “Identification (ID) Cards for Members of the Uniformed Services,
    Their Dependents, and Other Eligible Individuals,” December 5, 1997, which
    was issued by the Defense Human Resources Activity Headquarters, and
    supports DEERS and RAPIDS for the Uniformed Services. Further, the Joint
    Instruction provides instructions to prepare, issue, use, account for, and dispose
    of ID cards the Services issue. The DEERS/RAPIDS Project Offices receive
    their direction from the Defense Human Resources Activity Headquarters which
    is part of the USD(P&R).


                                         7
Issuing the Uniformed Services Member Identification Cards. RAPIDS
produces ID cards for members of the Services and their family members and
updates personnel information stored in DEERS. The Services employ
administrative personnel to process information that is critical in the DEERS
database. The RAPIDS administrators are termed Verifying Officials (VO) and
Super Verifying Officials (SVO). A VO is the person that processes
information from the Service member and issues the ID card. For Service
members to receive ID cards for themselves or their dependent and to update
personal information, a VO completes and the Service members sign the DD
Form 1172, “Application for Uniformed Services Identification Card/DEERS
Enrollment.” The VO verifies the dependent status between the sponsor and
family member. A VO may also have the role of a DEERS Issuing Official,
which allows the issuance of military ID cards. The Issuing Official’s name will
appear, if selected, in the designated box on the DD Form 1172. The VO is
supervised by an SVO, the person that is authorized to add and maintain site
specific information to the database, and trains and supervises the VOs. The
SVO may also perform DEERS site security manager functions to include
activating all RAPIDS users and assigning roles for new and existing users.

Management Controls at RAPIDS Sites. The following table quantifies 4 of
the management control weaknesses at 13 RAPIDS sites.




                     Management Controls at 13 RAPIDS Sites
                                               Management Controls
                   Problem                        In Place       Not in Place
Documented quality reviews performed by
   Super Verifying Officials                           0                13
Source documents retained                              3                10
Separation of duties for Issuing and
   Verifying Officials                                 2                11
Internal Standard Operating Procedures
   in place                                            5                 8


Documented Quality Reviews. Procedures for the SVOs to perform
documented quality reviews did not exist at any of the RAPIDS sites visited.
The information that goes into the DEERS database is important because it is
used to support DoD management decisions and programming to include
eligibility for benefits and access to military facilities. Quality reviews should
include reviewing DD Forms 1172 to verify completeness. The DD Forms
1172 should also be reviewed for the validity and accuracy of the data elements
that are often manually added, for example, the ID card expiration date. The
reviewer should ensure that the DD Forms 1172 have supporting documentation
to verify existence and eligibility of persons entered into DEERS. The reviews

                                    8
    need to be documented and should include the requirements in the Joint
    Instruction 36-3026.

    Source Documents. Of the 13 RAPIDS sites visited, 10 did not have a local
    requirement to maintain DD Forms 1172 and source documents such as birth
    certificates, marriage certificates, and court orders. The Joint
    Instruction 36-3026 requires that the DD Form 1172 for dependent family
    members is to be mailed to the DMDC, Monterey, California, for scanning,
    thereby eliminating filing at each issuing activity. However, the DMDC did not
    verify that all DD Forms 1172 were received. If the RAPIDS sites maintained a
    copy of the source documents and DD Forms 1172, it would provide
    documentation for quality assurance reviews of ID cards issued.

    Separation of Duties for Issuing and Verifying Officials. There was no
    separation of duties at 11 of the 13 RAPIDS sites visited. The receiving and
    verifying of information was not separated from the function of issuing ID
    cards. Separating the verifying function from the issuing function is a primary
    control in preventing fraudulent activity from occurring because more than one
    person will review the information before it is entered into DEERS or before an
    ID card is issued. If a VO reviews documentation and issues the ID card
    without an independent person checking the work, there is little control over the
    unauthorized issuance of ID cards.

    Standard Operating Procedures. Standard operating procedures (SOPs) were
    not in place at 8 of the 13 RAPIDS sites we visited. SOPs provide guidance for
    daily situations and handling irregularities. Local SOPs are needed to
    supplement procedures covered by Joint Instruction 36-3026 such as reporting
    lost ID cards. Without adequate formal procedures for reporting and replacing
    lost ID cards, the risk that an individual can claim the loss of an ID card in
    order to obtain a duplicate card is increased. Because of the lack of
    management controls at RAPIDS sites, DoD should develop an overall SOP as
    part of the comprehensive data quality assurance program to supplement the
    Joint Instruction 36-3026. An overall SOP would give RAPIDS personnel more
    specific guidelines and provide VOs with a basis for instituting specific
    management controls for issuing ID cards.

Quality Assurance for DEERS Data
    Responsibility and accountability for the quality assurance of data in DEERS
    were not effectively assigned within DoD. Specifically, the USD(P&R) did not
    provide guidance for developing and implementing a comprehensive data quality
    program. A comprehensive quality program includes statistical reviews of the
    database for continuing eligibility and followup on all errors. DMDC and the
    military personnel centers conducted limited reviews, primarily edit checks at
    DMDC, but did not conduct systematic or statistical reviews of data already in
    DEERS. Neither the personnel centers nor DMDC recognized a responsibility
    for verifying that beneficiaries in the DEERS database are eligible.


                                        9
Quality Assurance Program. A data quality assurance program should consist
of management’s policies and procedures to provide reasonable assurance that
DEERS data are being reliably recorded and reported. At a minimum, effective



data quality assurance controls to ensure the reliability of DEERS data should
include:

       • ongoing analysis and followup of errors;

       • effective coordination between DMDC file managers and military
         personnel center liaisons located at DMDC to ensure data validity and
         accuracy in DEERS;
       • systematic reviews of the eligibility of all beneficiaries in DEERS; and

       • timely reporting of errors, corrections, and relevant quality data to all
         management levels and users of DEERS data.

Responsibility for Quality Assurance. DoD Directive 1341.1, “Defense
Enrollment Eligibility Reporting System (DEERS),” May 21, 1999, states that
the Assistant Secretary of Defense for Health Affairs under the USD(P&R), in
coordination with the Assistant Secretary of Defense (Force Management
Policy), Assistant Secretary of Defense (Reserve Affairs), and the Deputy
Under Secretary of Defense (Program Integration) (DUSD[PI]) establishes
guidance for the oversight, funding, personnel staffing, direction, and functional
management of DEERS. The directive requires the DUSD (PI) to establish and
chair an Overarching Integrated Product Team that is responsible for the
oversight of DEERS and other management functions such as reviewing DEERS
improvements. Twenty-one months after issuance of the directive, the
Overarching Integrated Product Team had not been established. As part of a
comprehensive data quality assurance program, the Overarching Integrated
Product Team should be established.

Quality Reviews at DMDC. Edit checks are performed by DMDC File
Managers using the appropriate DoD guidance for issuing ID cards to eligible
beneficiaries. Although the guidance addresses the record format, it does not
discuss the responsibility of developing a data quality assurance program to
ensure the accuracy and validity of the data submitted for each pay file. The
Military Liaisons at DMDC receive research requests from DMDC and the
Services. In addition, some Military Liaisons receive error reports from the
DMDC File Managers to correct. Generally, these data errors are corrected by
the military personnel centers. However, DMDC does not have systematic
followup procedures in place to ensure that errors are corrected.




                                    10
Effect on Delivery of Services
     Several of the ineligible beneficiaries identified in our sample received DoD
     medical care. However, because of a decentralized approach to maintaining
     DoD medical records and discrepancies among health care databases, the full
     extent of medical care received by ineligible persons was not determinable. The
     issuance of ID cards to ineligible persons may affect the delivery of health care
     benefits to eligible retirees and other beneficiaries. Ineligible persons will have
     access to DoD medical care services including costly prescription drugs, and
     other benefits, further burdening the systems and making access to benefits less
     available to legitimate eligible beneficiaries. Although providing DoD medical
     care to ineligible beneficiaries results in DoD expending health care funding that
     could be used to provide additional DoD medical care to eligible beneficiaries,
     we cannot quantify the amount.

     Furthermore, there is an impact on the DoD commissary system, exchange
     system, and other benefits for which we were also unable to develop a cost
     estimate for delivery of these services. For example, we determined that an
     ineligible sponsor was inappropriately using the exchange system. In addition,
     some of the estimated 841,000 unverified beneficiaries may be ineligible for
     DoD medical care, commissary, exchange, and other benefits.

Access to Facilities
     The risk of unauthorized access to DoD facilities and services is increased when
     ineligible beneficiaries are issued ID cards. In November 1999, the Deputy
     Secretary of Defense directed all DoD Components to implement the use of a
     standard DoD smart card as a common access card (CAC). DEERS will be a
     source of information for the CAC. The CAC will be the standard ID card for
     active duty military personnel, DoD civilian employees, and eligible contractor
     personnel. The CAC will also be the principal card used to enable physical
     access to buildings and controlled spaces and will be used to gain access to DoD
     computer networks and systems. This card will contain an integrated circuit
     chip and other relevant media such as magnetic stripe and bar code. To ensure
     full and consistent use of existing capabilities and to gain efficiencies, the CAC
     will be issued and maintained using the infrastructure provided by the DEERS
     database and RAPIDS. The initial implementation plan for the CAC program
     does not include retirees and family members, thereby limiting the exposure of
     DoD to the poor overall controls that we documented at the RAPIDS sites.

Effect on Program Costs and the MRHB Liability Estimate
     Including ineligible beneficiaries in DEERS could result in DoD overestimating
     future costs. For example, unreliable information is introduced into the military
     health budget formulation process. Tricare and the Defense Health Program
     depend on population information from DEERS to determine the military health
     budget. Additionally, DoD could use inaccurate trend information in the
                                         11
    calculation of Tricare contract rates. The accuracy of the MRHB liability
    estimate is adversely affected. Ineligible beneficiaries, beneficiaries unable to
    be verified, and critical data errors in the beneficiary population adversely
    affected the accuracy of the MRHB liability estimate. The Actuary, DoD, was
    unsure of the extent of the adverse effect on the liability estimate on the
    FY 2000 financial statements and future years but agreed there was an adverse
    effect.

Recommendations
    We recommend that the Under Secretary of Defense (Personnel and Readiness):

       1. Require the Director, Defense Manpower Data Center, to develop and
       maintain a complete list of users of Defense Enrollment Eligibility Reporting
       System data, how the data are used and the responsible organization(s) and
       the points of contact for data quality assurance for each use.

       2. Develop and implement a comprehensive data quality assurance program
       to verify the completeness, existence, and accuracy of the new data entered
       into Defense Enrollment Eligibility Reporting System at Real-Time
       Automated Personnel Identification System data entry sites and the existing
       data residing in the Defense Enrollment Eligibility Reporting System
       database. The program should include:

          a. standard operating procedures at Real-Time Automated Personnel
       Identification System sites, requiring separation of duties and source
       document retention;

          b. documented systematic quality reviews of information generated at
       Real-Time Automated Personnel Identification System sites to ensure that
       complete and accurate documentation was obtained and transmitted for all
       beneficiary enrollees;

           c. statistical and detailed reviews of Defense Enrollment Eligibility
       Reporting System records to validate DoD beneficiaries documented proof
       of eligibility and removal of persons who are ineligible for benefits;

           d. rigorous documented followup reviews of errors and omissions
       detected to include timely reporting of error, corrections, and relevant
       quality data to all management levels and users; and

          e. establishment of the Overarching Integrated Product Team as
       required by DoD Directive 1341.1, “Defense Enrollment Eligibility
       Reporting System (DEERS),” dated May 21, 1999.




                                        12
Management Comments Required
    The Under Secretary of Defense (Personnel and Readiness) did not comment on
    a draft of this report. We request that the Under Secretary of Defense
    (Personnel and Readiness) provide comments on the final report.




                                     13
Appendix A. Audit Process

Scope
    Work Performed. This audit focused on the reliability and completeness of the
    DEERS demographic data used to calculate the $192.4 billion DoD MRHB
    liability used in the FY 2000 DoD Agency-Wide Financial Statements. We
    reviewed the September 30, 1998, DEERS demographic data extract provided
    by DMDC to the Actuary, DoD. The DEERS database consists of more than
    11 million beneficiaries who are currently eligible for various types of benefits.
    The DEERS extract consisted of approximately 8.4 million beneficiaries eligible
    for medical care at the expense of DoD.

    We also reviewed the internal controls associated with the input points of
    DEERS data. In conjunction with the individual military service personnel
    centers, initial entries at RAPIDS sites determine a beneficiary’s eligibility in
    DEERS. There were approximately 900 RAPIDS sites worldwide that served as
    input points for DEERS data. RAPIDS sites were also used to update sponsor
    information in DEERS and issue ID cards. We conducted our review at
    13 RAPIDS sites and 3 military service personnel centers. The following table
    lists the sites visited.


                                         Sites Visited
                      Location                                Site Name
        Adjutant General Headquarters State    Adjutant General Washington D.C.
        Bethesda Naval Hospital                Personnel Support Detachment Bethesda
        Bolling Air Force Base                 11 Mission Support Squadron
        Fort Belvoir                           U.S. Army Garrison Ft. Belvoir
        Fort Eustis                            Chief Headquarters U.S. Army
                                                 Transportation Center and Fort Eustis
        Fort Lee                               Soldier One Stop Fort Lee
        Fort Myer                              Commander
        Headquarters U.S. Marine Corps         Headquarters U.S. Marine Corps
          Henderson Hall
        Langley Air Force Base                 1 Mission Support Squadron
        Naval Air Station Oceana               Personnel Support Detachment Oceana
        Naval Base Norfolk                     Regional ID Card Lab
        Quantico                               Military Personnel Branch
        Walter Reed                            Walter Reed Army Medical Center
        Air Force Personnel Center             Randolph Air Force Base
        Navy Personnel Center                  Millington Tennessee
        Army Personnel Center                  Hoffman Building

                                        14
Of approximately 900 RAPIDS sites we judgmentally selected 13 RAPIDS sites
to visit that we felt were representative of the different Military Services and
had different transaction volumes. We selected our RAPIDS sites, excluding
deployable RAPIDS, based on locality and transaction volume. The 13
RAPIDS sites visited reported 17,783 transactions. We reviewed the
procedures and controls over information entered into RAPIDS, and information
uploaded into the DEERS database. In addition, we determined whether the
RAPIDS sites complied with Joint Instruction 36-3026 and other relevant DoD
guidance.

Review of DEERS Extract and Beneficiary Records. We selected and
reviewed two samples of the DEERS extract: one sample was for statistical
projection purposes, the other served as an initial indication for the need to
select a statistical sample representative of the DEERS extract. The statistical
random sample consisted of 100 sponsors and their 122 dependents and the non-
statistical systematic sample consisted of 50 sponsors and their 67 dependents.
We reviewed the demographic information of these sponsors and related
dependents to verify sponsor and dependent existence and the reliability of
critical data elements used in determining beneficiary eligibility for benefits and
calculating the MRHB liability estimate.

We compared each of the selected sponsors and related dependents’
demographic information from the DEERS extract with information from actual
hardcopy personnel records or other corroborative information. This
information included verbal confirmations from sponsors, or printouts from base
personnel support detachments and military personnel center databases unrelated
to the DEERS network. We also compared information from the DEERS
extract to all available information contained in the sponsor personnel records at
the National Personnel Records Center in St. Louis, Missouri; Military
personnel centers; military base personnel support detachments; the Air Force
Reserve Center in Denver, Colorado; and the Defense Finance and Accounting
Service in Cleveland, Ohio, and Denver, Colorado to determine sponsor and
dependent existence and eligibility, and demographic data reliability. We also
obtained additional beneficiary information from the Office of the Assistant
Secretary of Defense (Health Affairs); the Actuary, DoD; DMDC West;
DMDC East; RAPIDS sites; and the U.S. Department of Veterans Affairs.

DoD-Wide Corporate-Level Government Performance and Results Act
Coverage. In response to the Government Performance and Results Act, the
Secretary of Defense annually establishes DoD-wide corporate-level goals,
subordinate performance goals, and performance measures. Although the
Secretary of Defense has not established any goals for Information Assurance,
the General Accounting Office lists it as a high-risk area. This report pertains
to Information Assurance as well as to achievement of the following goal and
subordinate performance goal:

       • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
         uncertain future by pursuing a focused modernization effort that
         maintains U.S. qualitative superiority in key warfighting capabilities.

                                    15
              Transform the force by exploiting the Revolution in Military Affairs,
              and reengineer the Department to achieve a 21st century
              infrastructure. (01-DoD-2)

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
             financial and information management. (01-DoD-2.5)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           • Financial Management Functional Area. Objective: Reengineer
             DoD business practices. Goal: Improve data standardization of
             finance and accounting data items. (FM-4.4)

           • Financial Management Functional Area. Objective: Strengthen
             internal controls. Goal: Improve compliance with the Federal
             Managers’ Financial Integrity Act of 1982. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.



Methodology
    Use of Computer-Processed Data. We used computer-processed data that the
    Actuary, DoD, and contractor personnel used to calculate the military
    retirement health benefits liability estimate. We assessed the data as it pertained
    to reliability of beneficiary demographic information and beneficiary eligibility
    in the DEERS extract provided to the Actuary, DoD. Our review of controls
    and the results of data tests showed the data in DEERS needed improvement as
    discussed in the Finding section of this report.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from October 1999 through February 2001 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did our work in accordance
    with generally accepted Government auditing standards except that we were
    unable to obtain an opinion on our system of quality control. The most recent
    external quality control review was withdrawn on March 15, 2001, and we will
    undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, the U.S. Department of Veterans Affairs, and the
    Social Security Administration. Further details are available on request.


                                        16
Statistical Sampling Methodology
           Sampling Objectives. The purpose of the statistical sampling was to test the
           quality and reliability of the DEERS demographic data used as part of the
           calculation of the DoD MRHB liability estimate.

           Population. The population tested comprises the 8,411,437 individuals
           reported as eligible for benefits in DEERS as of September 30, 1998, the end of
           FY 1998. Their eligibility is based on 4,121,996 sponsors reported by DEERS
           for the same end of fiscal year timeframe. The beneficiaries’ data were
           evaluated from the perspective of the six data elements that the DEERS Program
           Office considers critical, and that are used in the calculation of the DoD MRHB
           liability valuation.

           Sample Design. The project used a stratified cluster sample design to test
           quality and reliability of DEERS data on military sponsors and their dependents.
           The project tested both sponsor and dependent beneficiary data. The design
           selects sponsors at the first stage, within strata, and tests all beneficiaries
           associated with that sponsor. The sample design is as follows:

                                                             Associated         Sample        Associated
                    Stratum                Sponsors         Beneficiaries      Sponsors      Beneficiaries
             Retirees & Deceased1          2,264,257         4,243,735            70             1602
             Active & Other                1,857,739         4,167,702            30              62
                     Total                 4,121,996         8,411,437           100             222


           The 4,121,996 sponsors are associated with 8,411,437 beneficiaries, which
           include living sponsors. The following analyses use the 100 sponsors sampled
           as “clusters” of beneficiaries. We used two files: one table of all sponsors as
           of the end of FY 1998 and another table of all beneficiaries as of the end of
           FY 1998. There is at least one living beneficiary for each sponsor sampled.
           DEERS maintains records for deceased sponsors in the sponsor file records so
1
    There were 4,121,996 records in the September 30, 1998, DEERS sponsor file. Among these are
    1,911,889 retired sponsors, 352,368 deceased sponsors, 1,578,060 active sponsors and 279,679 of all
    other categories combined (these include DoD civilians, gray area retirees, and retired reservists).
    Retiree and deceased records are held at the National Personnel Records Center, St. Louis, Missouri;
    active and other personnel records are held in various organization personnel offices. The same source
    reports 8,411,437 beneficiaries, with 3,777,643 being active duty sponsor beneficiaries, 466,092
    “other” sponsor beneficiaries, 3,781,926 retired sponsor beneficiaries, and 385,776 deceased sponsor
    beneficiaries. Among the 4,121,996 sponsors are 177,399 with no associated record in the beneficiary
    file. Although in the sampling frame, none of these sponsors were picked in the sample. Most
    (177,137) were retirees. Another 248 were deceased, and the remaining 14 were active duty sponsors.
2
    Associated beneficiaries include sponsors because sponsors are beneficiaries as well as dependents.



                                                     17
           long as there are eligible beneficiaries related to the sponsors. These
           beneficiaries are most often surviving spouses.

           Analysis Design. Overall, beneficiaries’ data fell into one of four situations:
           (1) Office of the Inspector General (OIG), DoD, staff were able to find adequate
           audit evidence for all critical data elements and found no errors; (2) OIG staff
           were able to find adequate audit evidence to support critical data elements and
           found errors in one or more data elements; (3) OIG staff were not able to find
           adequate audit evidence for any critical data elements to prove beneficiary
           existence or identity and eligibility; and (4) OIG staff found adequate audit
           evidence which showed the beneficiary was not eligible, based on eligibility
           criteria. Those beneficiaries for whom there was no adequate audit evidence for
           critical elements to prove existence or identity and eligibility are categorized as
           “unverified.”
           Sample Results - Unverified Beneficiaries. Based on the sample data, we
           project that between 446,000 and 1,236,000 beneficiaries would be
           “unverified.”3 This confidence interval is calculated using a 90 percent
           confidence level and has a mid-point of 841,000 beneficiaries, which we use to
           represent the projected range.

           Sample Results - DEERS Data Errors and Ineligibles. We analyzed the
           sample data in terms of two complementary characteristics: (1) the number of
           beneficiaries for whom there was at least one error in the six data elements
           DEERS management considered to be critical, and (2) the number of
           beneficiaries who were not eligible to be in the DEERS database as eligible for
           benefits. The results should be compared to the 8.4 million beneficiaries of the
           4.1 million living or deceased sponsors.

           Based on the sample data, we project that between 92,000 and 361,000
           beneficiaries would have data element errors. This confidence interval is based
           on the 90 percent confidence level and has a mid-point of 226,000 beneficiaries.
           In terms of ineligibles, based on the same sample data, we project that among
           the 8.4 million beneficiaries, between 28,000 and 349,000 are not eligible and
           should not be in the DEERS database as eligible for benefits. The mid-point of
           this 90 percent confidence interval is 189,000.

           Combined Rate of Data Errors, Ineligibles and Unverified Beneficiaries.
           We also analyzed the sample data in terms of how many beneficiaries would
           have fallen into any of the four categories. Since the four are mutually
           exclusive, the results added up together. That is, a given beneficiary could
           either (1) be a known eligible beneficiary with no problems, (2) be a known
           ineligible, (3) be a known eligible with one or more data element errors, or
           (4) be someone for whom we could not verify any data elements. The combined
           problem rate statistics should be compared to the 8.4 million beneficiaries of the
           4.1 million living or deceased sponsors.
3
    The “unverified” beneficiaries were those for whom audit staff could not find documentary support or
    obtain sponsor verbal confirmation to conclusively validate beneficiary information and existence and
    reliability of data elements.

                                                     18
    Based on the sample data, we project that between 826,000 and 1,686,000
    beneficiaries have critical data errors, were ineligible, or were unverified. This
    confidence interval is based on the 90 percent confidence level and has a
    mid-point of 1,256,000 beneficiaries.



Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    input controls and the quality assurance at several RAPIDS sites representing the
    Military Services. In addition to the RAPIDS sites, we reviewed the adequacy
    of DMDC management controls over the reliability of beneficiary demographic
    data in the DEERS database. We analyzed by categorized file managers and
    military liaison officers representing the Military personnel centers. We also
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses at RAPIDS sites as well as at DMDC as defined by DoD
    Instruction 5010.40. Weak management controls at the RAPIDS sites visited
    were exhibited by the lack of consistency and standardization of policies and
    procedures. Without consistency in procedures and training of individuals
    providing the input, there is no assurance of accurate and reliable data being
    input into the RAPIDS and, subsequently, DEERS. At the RAPIDS sites,
    quality reviews were not documented, source documents were not adequately
    retained, duties were not separated between the issuing and verifying officials,
    and no internal standard operating procedures were in place. Also, DMDC
    management controls were not adequate to ensure that data in the DEERS
    database were accurate and reliable. Recommendations if implemented, will
    establish effective data quality reviews at the RAPIDS sites and improve
    DEERS beneficiary data reliability. A copy of the report will be provided to the
    senior official responsible for management controls in USD(P&R).

    Adequacy of Management’s Self-Evaluation. In DMDC’s self-evaluation, the
    quality assurance program at the RAPIDS sites is not addressed for the Military
    Services, and DMDC did not identify the material management control
    weaknesses identified by the audit. DMDC used management vulnerability
    assessments to prepare the DMDC self-evaluation. Although the vulnerability
    assessments included a question about validating the accuracy of data input to
    computer systems, the DMDC official who prepared the DMDC self-assessment
    did not retain copies of the input used to prepare the DMDC self-assessment.


                                        19
    As a result, we were unable to assess the accuracy and completeness of the
    responses to the questions in the vulnerability assessments.



Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audits/reports. The IG, DoD, has issued
    three reports on the military retirement health benefits liability estimate and one
    report on the DEERS database:

    Inspector General, DoD
           Inspector General, DoD, Report No. D-2000-194, “Demographic Data
           Supporting the DoD Military Retirement Health Benefits Liability
           Estimate,” September 29, 2000

           Inspector General, DoD, Report No. D-2000-141, “Reporting of the
           FY 1999 Military Retirement Health Benefits Liability in the DoD
           Financial Statements,” June 9, 2000

           Inspector General, DoD, Report No. D-2000-090, “Inpatient Data
           Supporting the DoD Military Retirement Health Benefits Liability
           Estimate,” March 1, 2000

           Inspector General, DoD, Report No. CIPO2000S001, “Evaluation of the
           Criminal Investigative Environment in which the Defense Enrollment
           Eligibility Reporting System Operates,” January 7, 2000




                                        20
Appendix B. Schedule of Management Control
            Problems
           The lack of adequate management controls was a major factor that contributed
           to incomplete and inaccurate data being entered into DEERS through RAPIDS.
           The following table is a summary of the problem areas pertaining to
           management controls that were identified during the audit at the 13 RAPIDS
           sites:

                                         Controls                               Yes            No
               ∗
                1 Documented quality reviews done by SVOs                         0            13
               *
                2 Source documents retained                                       3            10
               *
                3 Inventory of blank cards                                        7             6
                4 Newborns are handled in accordance with                         5             8
                  (IAW) the Regulation
               *
                5 Issuing and verifying officials are the same                   11             2
               *
                6 Internally developed SOP                                        5             8
               *
                7 Procedures in place for lost ID card                            6             7
               *
                8 ID cards issued reconciled with ID card audit                   6             7
                  trail report
                9 Source documents verified                                      13             0
               10 Issue ID cards offline                                          4             9
               11 System validation and edit checks                              13             0
               12 ID cards issued IAW the Regulation for students                12             1
                  over 21 years old
               13 VOs log on before each use                                     11             2
               14 DD Forms 1172 signed IAW the Regulation                        11             2
               15 Personnel adequately trained                                   10             3
               16 Adequate procedures used for logging on                        10             3
               17 SVOs or VOs met the grade requirement                          10             3
               18 DD Forms 1172 handled IAW the Regulation                        8             5
              *
               19 Log book kept                                                   8             5
              *
               20 Ability to delete an erroneous transaction that                 0            13
                  was printed off-line and was not yet transmitted
                  to DEERS


∗
    Specific management control procedures not specifically described in the joint regulation, Air Force
    Instruction 36-3026 “Identification Cards for Members of the Uniformed Services, Their Family
    Member, and Other Eligible Personnel,” July 29, 1999.




                                                      21
 Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)
  Office of the Actuary, Department of Defense
  Director, Defense Manpower Data Center

Department of the Army
Auditor General, Department of the Army
Surgeon General, Department of the Army
Commanding General, Fort Lee

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Surgeon General, Department of the Navy
Commander, Personnel Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Surgeon General, Department of the Air Force
Commander, Air Force Personnel Center, Randolph Air Force Base

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         23
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

     Paul J. Granetto
     Richard B. Bird
     David F. Vincent
     Walter R. Loder
     Bryan K. Kitchens
     Adrienne B. Brown
     Linh Truong
     Michael L. Davitt
     Barry D. Gay
     Walter J. Gaich
     John W. Wright
     Charles A. Mordecai
     Lisa C. Rose-Pressley




                                     24
